IN THE
SUPREME COURT OF THE UNITED STATES
)
DEPARTMENT OF HOMELAND SECURITY,
)
ET AL.,
)
Petitioners, )
)
v.
)
VIJAYAKUMAR THURAISSIGIAM,
)
Respondent. )

No. 19-161
On Writ of Certiorari to the U.S.
Court of Appeals for the Ninth
Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the “Brief Amicus
Curiae of Immigration Law Reform Institute in Support of Petitioners” filed on behalf
of the Immigration Law Reform Institute in the above-captioned matter contains
4,975 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 16, 2019.

/s/ Lawrence J. Joseph
Lawrence J. Joseph
1250 Connecticut Ave, NW, Suite 700-1A
Washington, DC 20036
Tel: (202) 355-9452
Email: lj@larryjoseph.com
Counsel for Amicus Curiae

